HHS/OIG, Audit -"Review of Utah's Accounts Receivable System for Medicaid Provider Overpayments,"(A-07-04-03051)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Utah's Accounts Receivable System for Medicaid Provider Overpayments," (A-07-04-03051)
August 19, 2004
Complete
Text of Report is available in PDF format (414 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the State agency reported Medicaid provider overpayments according
to Federal regulations.  We found that the State agency did not report 93 Medicaid provider overpayments totaling
$420,415 (Federal share) to CMS in accordance with Federal regulations.  As of March 31, 2004, seven of those overpayments,
totaling $22,492 (Federal share), remained unreported.  The State agency did not always follow established policies
and procedures.  Furthermore, its policies and procedures were not sufficient to ensure the timely reporting of all
overpayments.  We recommended that the State Agency (1) refund the Federal share of overpayments to the Federal Government,
and (2)  strengthen policies and procedures to ensure all overpayments are reported in accordance with Federal regulations.  The
State agency concurred with our findings and initiated corrective action.